                                          June 7, 2005




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    MEMORANDUM REPORT: AUDIT OF NRC’S
                            POLICY AND PRACTICES CONCERNING CAMERA
                            CELL PHONES (OIG-05-A-12)


As part of the Office of the Inspector General’s (OIG) audit of NRC’s
telecommunications program, OIG identified a problem outside the scope of the
audit that warrants your attention. Specifically, NRC lacks a camera cell phone
policy to:

   ¾ Establish requirements for Office of Information Services (OIS) acquisition
     of camera cell phones for use by employees.

   ¾ Remind employees and visitors that the prohibition against taking
     photographs in NRC buildings also applies to camera cell phones.

   ¾ Provide security guards with guidance on the handling of camera cell
     phones brought to the building by visitors.

Furthermore, the agency is not enforcing its current policy toward visitors with
cameras. This increases the risk that the agency’s classified and sensitive
information could be deliberately or inadvertently made public or otherwise
compromised.

Background

Camera cell phones, if misused, pose security and privacy threats because they
enable people to covertly photograph images or scenes and transmit them
immediately to the Internet. Since 2000, when camera cell phones were
introduced, individuals have misused the devices in various ways, including
secretly taking revealing pictures of people in locker rooms, cheating during
                                    Audit of NRC’s Policy and Practices Concerning Camera Cell Phones



tests, and committing credit card theft. In addition, security professionals have
identified the potential for other abuses, such as Government and industrial
espionage.

The Federal Government, companies, schools, health clubs, and other entities
are taking various steps to deal with the security and privacy threats posed by
camera cell phones and other new wireless devices with photographic
capabilities. On December 23, 2004, President Bush signed the Video
Voyeurism Prevention Act of 2004. This law made it a crime to knowingly
photograph, videotape, or record by any means an image of a private area of an
individual without their consent on Federal property where the individual has a
reasonable expectation of privacy. Punishment would include fines of up to
$100,000 or up to a year in prison, or both. Some Government offices that
handle classified information, companies, health clubs, and high schools have
banned or restricted the use of camera cell phones on their premises.

Due to the growing popularity of camera cell phones, security professionals have
urged companies and agencies to establish policies and restrictions on the use of
camera cell phones and to ensure employee awareness of these rules.

Approximately 20 percent of U.S. cell phone users had camera cell phones
during 2004 and, according to analysts, by 2006, 80 percent of the cell phones
sold in the U.S. will be camera phones.

NRC Needs To Develop a Camera Phone Policy and Better Enforce Its
Camera Policy

Guidance on Cameras

Management Directive (MD) and Handbook 12.1, NRC Facility Security Program,
permit visitors and employees to bring personal cameras into NRC buildings, but
prohibit the use of these devices to take pictures inside NRC buildings without
permission from the Director, Division of Facilities and Security, or, in some
cases, from the Director, Office of Public Affairs. This guidance, revised on
April 14, 2004, represents a departure from the language contained in an earlier
version of the MD and Handbook that prohibited employees and visitors from
bringing cameras into the buildings without approval. MD and Handbook 12.1
also permit the use of NRC-owned photographic equipment within NRC facilities
to conduct official NRC business, however, such use is prohibited in security
areas1 and other locations where it could result in the compromise of classified or
sensitive unclassified information.




1
  According to MD and Handbook 12.1, a security area is a physically defined space (usually a
room, or a series of interconnecting rooms, within a facility) containing classified information and
subject to physical protection and personnel access controls.

                                                  2
                              Audit of NRC’s Policy and Practices Concerning Camera Cell Phones



Visitors and Employees Unaware

NRC has not ensured that employees and visitors understand that NRC’s
general prohibition against taking photographs within agency facilities also
applies to camera cell phones. Similarly, the agency has not ensured that
employees are aware of vulnerabilities associated with the use of camera cell
phones.

       Camera Phone Purchase Request

Recently, an NRC official requested that OIS provide the official with a camera
cell phone. In the past, OIS typically accommodated all requests for cell phones,
so this created a challenge for OIS, which ultimately denied the request for
security reasons. Camera cell phones are small, easy to use, and provide
immediate images that can be transmitted instantly to the Internet for widespread
dissemination. Careless use can compromise classified or sensitive information
or even physical security measures used to protect NRC facilities.

OIS officials said that the lack of guidance on camera cell phones required them
to seek advice from an agency security official on the security vulnerabilities
posed by these devices. OIS officials said that denying the request was
somewhat awkward because of the past practice of accommodating requests.
OIS officials held discussions with the requestor to explain the security
vulnerabilities associated with having the camera feature on the cell phone. This
situation highlights the need for a policy stipulating the conditions for granting or
denying requests for camera cell phones and informing staff of the risks posed by
these devices. According to an OIS manager, such a policy would need to go
beyond camera cell phones and address other wireless devices with
photographic capabilities, such as some types of personal digital assistants.

       Personal Camera Cell Phones

Employees may similarly be unaware of the risks posed by their personal camera
cell phones. These phones are an emerging technology and more and more
employees are likely to have personal camera cell phones as time goes by.
Employees who might not otherwise consider taking a picture within the agency
may be tempted to do so because of the camera cell phone’s convenience.

       Security Guards

Security guards impose no requirements on visitors with camera cell phones and
impose inconsistent requirements on visitors with cameras that are not in
accordance with the requirements in MD and Handbook 12.1. Guards in both




                                           3
                               Audit of NRC’s Policy and Practices Concerning Camera Cell Phones



buildings recognized the risks posed by camera cell phones, but said NRC has
not issued instructions to them on how to deal with visitors who have these
phones. Therefore, they do not try to determine if visitors have these phones
and would not take any special measures even if they knew a visitor had one.

Auditors also determined that security guards in the two headquarters buildings
are imposing different requirements on visitors with cameras. In neither case are
the requirements imposed in accordance with MD 12.1. In the Two White Flint
North headquarters building lobby, guards act on outdated guidance by
confiscating cameras from visitors entering the building. Visitors may read this
prohibition, which appears on a guard desk sign that lists prohibited articles,
including cameras. However, guards in the One White Flint North headquarters
building lobby allow visitors to keep their cameras with them provided their escort
has been notified about the camera. A sign in this building states cameras are
permitted with authorization, although OIG notes that MD and Handbook 12.1
make no mention of a need for such authorization.




Two White Flint North lobby sign                One White Flint North lobby sign



Lack of Policy

Employees may be unaware of the vulnerabilities posed by camera cell phones
and the prohibition against taking photographs in NRC buildings because there is
no policy on wireless devices with photographic capability, including camera cell
phones, and because the prohibition against taking photographs is not well
publicized. The prohibition is mentioned within MD and Handbook 12.1 as part of
a discussion of physical security requirements for the protection of classified
information, but is not likely to be read by all or most employees. New employees




                                            4
                              Audit of NRC’s Policy and Practices Concerning Camera Cell Phones



are even less likely to be aware of the prohibition because they are not briefed at
the new employee orientation on the prohibition against taking photographs in
the NRC buildings. At the time of this audit, OIS was working to develop a policy
on wireless devices.

Visitors are also unlikely to be aware of NRC’s expectations concerning camera
cell phones because NRC has not directed security guards to try to identify these
phones, caution visitors about these phones, or take some other measure to
ensure that the NRC photography policy is enforced.

Deliberate or careless use of camera cell phones can compromise classified or
sensitive information or even physical security measures used to protect NRC
facilities. These phones provide immediate images that can be transmitted
instantly to the Internet for widespread dissemination. The growing popularity of
camera cell phones highlights the need to heighten employee and visitor
awareness about NRC’s prohibition against photographs inside agency facilities.

By implementing a camera cell phone policy that addresses camera cell phones
and clarifies agency requirements concerning cameras in general, and
consistently implementing its overall camera policy, NRC will strengthen its
protection against information and physical security threats.

Recommendations

OIG recommends that the Executive Director for Operations:

   1. Develop a policy that (a) establishes requirements for OIS acquisition of
      camera cell phones and other wireless devices with photographic
      capability for employee use, (b) conveys that NRC’s prohibition against
      taking photographs in NRC buildings also applies to camera cell phones,
      and (c) communicates NRC’s expectations concerning visitors with
      camera cell phones.

   2. Issue a Yellow Announcement to remind employees of the NRC
      prohibition against using any type of device to take pictures inside NRC
      buildings.

   3. Inform new employees of the prohibition against taking photographs with
      any type of device inside NRC buildings during the new employee
      orientation.

   4. Inform visitors of the prohibition against taking pictures with any device
      inside NRC buildings through the display of posters at the building,
      auditorium, and meeting room entrances.

   5. Include, in the security guard orders, instructions for the security guards to
      use in handling visitors with camera cell phones.

                                           5
                             Audit of NRC’s Policy and Practices Concerning Camera Cell Phones



Agency Comments

During an exit conference held May 18, 2005, agency managers generally
agreed with the report’s findings and recommendations and provided a comment
concerning the draft audit report. We modified the report as we determined
appropriate in response to this comment. NRC reviewed these modifications and
opted not to submit formal written comments to this final version of the report.

Scope/Contributors

To accomplish this limited scope review assessing the agency’s policies and
procedures to prevent inappropriate use of camera cell phones in its
headquarters facilities, auditors reviewed relevant criteria such as the current
version of MD and Handbook 12.1, NRC Facility Security Program (dated April
14, 2004). Auditors also reviewed the prior version of MD and Handbook 12.1
(dated October 16, 2000) to assess the changes reflected in the updated
guidance and, for comparison purposes, a Department of Defense Directive,
dated April 14, 2004, concerning use of commercial wireless devices.

Auditors interviewed security guards in the One and Two White Flint North
lobbies to learn what practices they employ toward visitors with cameras and
camera cell phones. They also interviewed OIS officials and an official from the
Office of Administration to obtain their perspectives on whether NRC should
purchase camera cell phones for use by employees.

This work was conducted over a 2-week period during the month of April 2005 in
accordance with generally accepted Government auditing standards and
included a review of management controls related to the audit objective. The
work was conducted by Beth Serepca, Team Leader; Shyrl Coker, Audit
Manager; and Judy Gordon, Audit Manager.

Please provide information on the actions taken in response to the
recommendations directed to your office by July 18, 2005. Actions taken or
planned are subject to OIG followup. See Attachment for instructions for
responding to OIG report recommendations.

If you have any questions or concerns regarding this report, please contact me at
415-5915 or Beth Serepca at 415-5911.

cc:   Chairman Diaz
      Commissioner McGaffigan
      Commissioner Merrifield
      Commissioner Jaczko
      Commissioner Lyons




                                          6
                            Audit of NRC’s Policy and Practices Concerning Camera Cell Phones



Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Hubert T. Bell, Inspector General
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research, State
  and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Acting Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV




                                         7
